SEMIANNUAL REPORT TO CONGRESS




 U.S. ELECTION ASSISTANCE COMMISSION
      OFFICE OF INSPECTOR GENERAL




For the Period:
October 1, 2011, through
March 31, 2012

              U.S. ELECTION ASSISTANCE COMMISSION
                  OFFICE OF INSPECTOR GENERAL
                         1201 New York Ave. NW - Suite 300
                               Washington, DC 20005




April 30, 2012


To: Acting Executive Director, U.S. Election Assistance Commission


      The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress summarizing
the activities of the Office of Inspector General (OIG) for the six-month periods
ending each March 31st and September 30th. I am pleased to enclose the
report for the period from October 1, 2011 to March 31, 2012.


      The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should be
included in your management report that is required to be submitted along
with the Inspector General’s report.


      Working together, I believe we have taken positive steps to improve
Commission programs and operations.


                                            Sincerely,



                                            Curtis W. Crider
                                            Inspector General




                                       ii
Table of Contents
                                                       Page




Election Assistance Commission Profile                  1


Office of Inspector General Profile                     2

EAC Audits                                              3

Other Activities                                        5


Appendices:
  A. Reports Issued                                     7
  B. Monetary Impact of Audit Activities                8
  C. Reports with Questioned Costs                      9
  D. Reports with Potential Additional Program Funds   10
  E. Summary of Reports More Than Six Months Old       11
     Pending Corrective Action at March 31, 2012
  F. Summary of Reports More Than Six Months Old       12
     Pending Management Decision at March 31,
     2012
  G. Reporting Requirements of the Inspector           13
     General Act




                             iii
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a bipartisan,
independent commission consisting of four members. The Help America Vote
Act of 2002 specifies that commissioners are nominated by the President on
recommendations from the majority and minority leadership in the U.S. House
and U.S. Senate. Once confirmed by the full Senate, commissioners may serve
two consecutive terms and no more than two commissioners may belong to the
same political party. There are four vacancies on the commission.


The EAC was to assist states with improving the administration of elections for
Federal office. The EAC accomplishes this mission by providing funding,
innovation, guidance and information to be used by the states to purchase
voting equipment, train election personnel, and implement new election
programs. The EAC has awarded approximately $3.25 billion in grant funding
to the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and American Samoa (hereinafter referred to as “states”). With those
funds, the states have purchased voting equipment, established statewide voter
registration lists, implemented provisional voting, provided informational
material to voters at the polling place, and implemented a program to verify the
identity of voters using the statewide voter registration list in combination with
other state and Federal databases.


HAVA made EAC responsible for the Federally run testing and certification
program for voting systems. The testing and certification program was begun
in 2006. Through this program, the EAC develops standards for voting
equipment, accredits laboratories, and reviews and certifies voting equipment
based upon the tests performed by the accredited laboratories.


The EAC is responsible for administering the National Voter Registration Act
(NVRA) by promulgating regulations for the content and use of the National
Mail Voter Registration form.




                                      1
Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE). The Commission
appointed its first inspector general in August 2006 creating EAC’s Office of
Inspector General (OIG).


The OIG has always been a very small office. Other agencies have provided
assistance by detailing employees; we have contracted independent CPA firms
to conduct audits, and, finally, hiring permanent staff. The OIG currently has
two employees: inspector general and an assistant inspector general for audits.


Despite our small size, we perform all of the duties required of the inspector
general under the IG Act, including:


   •   Conducting and supervising audits, investigations, and other services
       (e.g., evaluations) relating to the programs and operations of the EAC;


   •   Providing leadership and coordination and recommending actions to
       management, which (1) promote economy, efficiency, and effectiveness
       in agency programs and operations; and (2) prevent and detect fraud,
       waste, abuse, and mismanagement of government resources; and


   •   Keeping the Commission, management, and Congress fully informed
       regarding problems and deficiencies, and the progress of corrective
       actions.


When conducting an investigation, we work with other Federal agencies to
detail investigators or contract for investigative services.


The OIG’s program to ensure economy, efficiency and integrity in the use of
funds does not exclusively translate into audits of the EAC or of its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse and



                                       2
mismanagement in EAC programs and operations. The OIG operates a hotline
to receive complaints regarding EAC, its programs, and its funding recipients.


EAC Audits

The OIG oversees the annual audits of EAC’s financial statements and
compliance with the Federal Information Security Management Act (FISMA).
Under contract, an independent public accounting firm conducts these audits.
Details of these audits follow.

EAC Financial Statement Audit


The independent public accounting firm of Leon Snead & Co., P.C. under
contract with the OIG rendered an unqualified opinion on the consolidated
financial statements of EAC for fiscal year 2011. However, Leon Snead & Co.,
P.C. identified one material weakness and one significant deficiency control
weakness. The material weakness is summarized below:


Documentation Not Provided Timely and/or Contained Errors: EAC’s service
provider did not provide data critical to the completion of the audit in a timely
manner. For example, an audit request for documentation showing how the
service provider cross-walked general ledger information to the financial
statements and footnotes was only provided after repeated requests. Other
data and documents that were not provided or not provided timely included:
documentation supporting journal vouchers prepared by the service provider,
account relationship tests, and completed, Financial Audit Manual (FAM)
checklists that provide assurances that the financial statements were properly
prepared. In addition, some information provided directly by EAC did not fully
support certain grant disclosure amounts. For example, supporting grant
disbursement records did not agree with the related footnote disclosure.


Posting Model Errors: Posting model errors in the service provider’s accounting
system resulted in misclassifying capital assets as an operating expense, errors
in posting a transfer of funds to another federal agency, and posting direct
entries to equity accounts. We also noted another posting model error dealing


                                     3
with imputed costs that was only corrected after the error was identified by
another client of the service provider. We attributed these problems to a
weakness in internal controls processes at the service provider concerning
review and approval of posting models that impact EAC operations. As a result,
if the errors had not been detected by parties other than the service provider,
EAC’s financial statements could have been misstated.


Journal Voucher Controls Need Strengthening: Journal vouchers2 (JV) initiated
and processed by the service provider to the general ledger were not provided
to EAC officials for review and approval, and/or necessary supporting
documentation was not provided to EAC to enable a determination of the
appropriateness of the entries.


Service Provider Errors: The financial statements presented for audit contained
errors that if not corrected would have resulted in qualifications to the audit
opinion on the 2011 and 2010 financial statements.


In response to the findings in the report, the EAC indicated that it would work
with the service provider to ensure timely submission of statements and
documentation. The EAC indicated that the service provider was not asked to
provide full support for the audit until near the end of the fiscal year, when EAC
found out it was losing its staff accountant as of September 2011. The staff
accountant provided the support for the past two fiscal years. In addition, the
EAC is moving its accounting operation to another service provider. The
transition to the new service provider should be completed in the summer of
2012.


FISMA Compliance


Leon Snead & Co. P.C., conducted the audit of the U.S. Election Assistance
Commission’s compliance with the Office of Management and Budget Circular
A-130 and FISMA requirements. The audit included assessing the EAC’s effort
to develop, document, and implement an agency-wide program to provide
information security for the information and information systems that support
the operations and assets of the EAC.


                                     4
The audit found that the EAC was in substantial compliance with FISMA
requirements. Specifically the audit found that the EAC had established
sufficient policies and procedures relating to its information technology security
program to address identified risks; implemented actions to address prior
concerns relating to meeting Privacy Act requirements; established a
continuous monitoring program that substantially addressed National Institute
of Standards and Technology requirements; provided annual security awareness
training and specialized training to its information technology specialists;
developed and tested a contingency plan; and had established required access
controls sufficient to meet identified risks.


Other Activities

Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and policy-
making efforts. We provide comment to significant policy statements,
rulemaking and legislation that affects the EAC. During this reporting period,
the EAC did not have any Commissioners and did not issue any policy
determinations. The Administration issued several pieces of guidance and
Executive Orders during the reporting period, which we reviewed. Last, we
participated in surveys and data calls issued by the Council of Inspectors
General on Integrity and Efficiency.


Hotline Complaints


The OIG received nine complaints during the reporting period. Six of those
complaints did not warrant an investigation by the OIG given the nature of the
complaint. Three complaints fell in the jurisdiction of other Federal agencies.




                                       5
Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting period.


Denial of Access to Records


We are reporting no activities in this category during the reporting period.


Peer Review Reports


The EAC OIG was subject to a peer review in 2009. The review was conducted
by the Federal Maritime Commission Office of Inspector General (FMC OIG).
The report was issued on June 10, 2009. The FMC OIG gave the EAC OIG a
“pass” rating. No material deficiencies were noted. However, the FMC OIG did
address four issues in its letter of comment:


   •   Complete independent statements in keeping with audit policy;
   •   Monitor continuing professional education requirements of auditors
       detailed from other OIGs;
   •   Use work paper check list to ensure that work papers have sufficient
       support for audit documentation and supervisory review; and
   •   Ensure technical checklist for monitoring audits performed by
       independent public accountants is used for each such audit.


Each of these recommendations has been implemented. There are no
outstanding recommendations.


The EAC OIG’s next peer review is scheduled for April of 2012.




                                     6
                                                       Appendix A
Reports Issued



EAC Audits       1. Independent Auditor's Reports on the U.S.
                 Election Assistance Commission's Financial
                 Statements for Fiscal Year 2011 (Assignment
                 No. I-PA-EAC-01-11), November 2011


                 2. Audit of Compliance with the Requirements
                 of the Federal Information Security
                 Management Act (Assignment No. I-PA-EAC-
                 02-11), October 2011




                           7
                                                       APPENDIX B
   Monetary Impact of Audit Activities

   Questioned Costs*                                         $0
   Potential Additional Program Funds                        $0
   Funds to Be Put to Better Use                             $0
   Total                                                     $0
*Unsupported costs are included in questioned costs.




                                         8
                                                            APPENDIX C
Reports With Questioned Costs

                                           Questioned      Unsupported
          Category               Number        Costs          Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            7       $25,783,623         $0

B. Which were issued during
the reporting period.              0              $0           $0

Subtotals (A + B)                  7       $25,783,623         $0

C. For which a management
decision was made during the
reporting period.                  6       $25,777,059         $0

 (i) Dollar value of
recommendations that were
agreed to by management.                   $     167,785       $0

 (ii) Dollar value of
recommendations not agreed
to by management.                          $25,609,274         $0

D. For which no management
decision has been made by
the end of the reporting
period.                            1       $      6,564        $0




                                       9
                                                     APPENDIX D
Reports With Potential Additional Program Funds

            Category                   Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                  4      $ 607,901
B. Which were issued during the
reporting period.                        0      $     0

Subtotals (A+B)                          4      $ 607,901

C. For which a management
decision was made during the
reporting period.                        4      $ 607,901

 (i) Dollar value of
recommendations that were
agreed to by management.                        $ 525,891

 (ii) Dollar value of
recommendations that were not
agreed to by management.                         $ 82,010

D. For which no management
decision has been made by the
end of the reporting period.             0       $     0
                                                                  $   0




                                  10
                                                                       APPENDIX E
Summary of Reports More Than Six Months Old Pending
Corrective Action at March 31, 2012

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B             Assessment of the U.S. Election Assistance
                            Commission’s Program and Financial Operations,
                            February 2008, 7 Recommendations


E-HP-HI-01-10               Administration of Payments Received Under the Help
                            America Vote Act by the Hawaii Office of Elections,
                            February 2011, 5 Recommendations

E-HP-NV-02-11               Administration of Payments Received Under the Help
                            America Vote Act by Nevada Secretary of State,
                            September 2011, 1 Recommendation




                                         11
                                                                   APPENDIX F
Summary of Reports More Than Six Months Old Pending
Management Decision at March 31, 2012

This listing includes a summary of audit and evaluation reports that were more
than 6 months old on March 31, 2012 and still pending a management decision.
It provides report number, title, and number of unresolved recommendations.


None.




                                       12
                                                                                  APPENDIX G
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                               5

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on
                      Which Corrective Action Has Not Been Completed                     11

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                  7

Section 5(a)(7)       Summary of Significant Reports                                      3

Section 5(a)(8)       Statistical Table – Questioned Costs                                9

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better   None
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the          None
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector         None
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance         None
                      Commission Office of Inspector General during the Reporting
                      Period


                                                13
 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election           6
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on        None
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance   None
                      Commission Office of Inspector General




                                                14
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1201 New York Ave. NW - Suite 300
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general/
                           FAX: 202-566-0957
               Inspector General
              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general/
